            STATUS OF THE
AVIATION RULEMAKING COMMITTEE’S
77 INITIATIVES FOR REDUCING DELAYS
        IN THE NEW YORK AREA
     Federal Aviation Administration
      Report Number: AV-2010-003
      Date Issued: October 21, 2009
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   Status of the Aviation Rulemaking                                                 Date:   October 21, 2009
           Committee’s 77 Initiatives for Reducing
           Delays in the New York Area
           Federal Aviation Administration
           Report Number AV-2010-003

  From:    Lou E. Dixon                                                                  Reply to
                                                                                         Attn. of:    JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           Following the record-breaking flight delays of summer 2007, the Secretary of
           Transportation established the Aviation Rulemaking Committee (ARC) to identify
           ways to reduce delays and congestion at the New York (NY) area airports.
           According to the Secretary “…one-third of the Nation’s air traffic goes in, out, or
           over New York airspace every day—accounting for three-quarters of all chronic
           airline delays.” Even though air traffic has dropped since 2007, the NY airports
           continue to face challenges, with nearly 36 percent of all flights delayed or
           cancelled in the first 6 months of 2009. The Federal Aviation Administration
           (FAA) has stated that NY delays impact the entire national airspace system due to
           those airports’ high volume, complex traffic patterns, and airspace management
           problems.

           On December 13, 2007, the ARC issued its report highlighting 77 initiatives for
           improving aviation operations and infrastructure. 1 This report presents the results
           of our review examining FAA’s actions in response to the ARC’s
           recommendations. We conducted this audit at the request of the Chairman of the
           House Subcommittee on Aviation, who expressed the Subcommittee’s concern
           about the effectiveness of delay-reduction efforts at the NY airports. Our audit
           objective was to examine FAA’s progress in implementing the 77 ARC initiatives.
           We conducted the audit from November 2008 through July 2009 in accordance

           1
               The ARC report also addressed four other topics for addressing NY delays: slot auctions, gate utilization, air traffic
               priorities, and scheduling practices.
                                                                                                                       2


with government auditing standards prescribed by the Comptroller General of the
United States. Exhibit A details our audit scope and methodology, and exhibit B
lists the locations visited or contacted.

RESULTS IN BRIEF
Since December 2007, FAA has reported completing 30 of the 77 initiatives. 2
However, most of these are not being used or are used infrequently. As a result,
delays and congestion in the NY area have only minimally been reduced. Several
factors have hampered their usage, including limited tactical need, operational and
technical problems, unfinished testing, and controller and airline issues (see table).

                                  Table. Status of 30 ARC Initiatives
                                        Reported as Complete
                                                  Category                                 No.
                         Benefits Seen                                                       5
                         Limited Tactical Use                                                  9
                         More Work Required                                                  13
                           Operational/Technical Problems (5)
                           Ongoing Testing (3)
                           Controller/Airline Issues (5)
                         Discontinued                                                          3
                             Total                                                           30

FAA faces a number of challenges that could further impede the effectiveness of
the remaining 47 initiatives, such as special equipment and training requirements,
questionable practicality, and litigation. Many of the remaining initiatives are also
part of larger, nationwide FAA programs (e.g., airspace redesign and NextGen)
that will not be completed until 2012 or later.

In addition, FAA lacks an effective process for assessing the usefulness of
individual initiatives—both before and after their implementation. As a result,
many of the completed initiatives were implemented before FAA had identified
baseline performance measures, validated their technical feasibility, or assessed
anticipated operational benefits against implementation costs. While FAA is
developing a process to evaluate all delay reduction efforts, much work remains to

2
    FAA’s Air Traffic Organization (ATO) considers the 30 initiatives as “complete” because the Agency has done all it
    can to make the initiative available for use. Although FAA testified on May 20, 2009, that it has “substantially
    completed” 30 of the 77 ARC initiatives, the Integration Office Director continues to examine these initiatives. The
    office has recently changed the status of nearly half of the 30 initiatives to “ongoing” until issues are resolved and
    benefits are seen.
                                                                                            3


be done. Without further evaluation, the Agency may continue to work on
initiatives that are not viable or cost effective and do not measurably reduce flight
delays. We are making a series of recommendations to assist FAA in evaluating
and implementing the completed and remaining initiatives.

BACKGROUND
On September 27, 2007, the Secretary of Transportation tasked the ARC to
identify options for reducing congestion and allocating scarce capacity in the
NY region. Members of the ARC included officials from the Department of
Transportation (DOT), FAA, the Port Authority of New York and New Jersey (the
Port Authority), airlines, and other aviation stakeholders. These officials
prioritized a large number of short-, mid-, and long-term improvement options—
ranging from changes to air traffic procedures and taxiways to significant
technological enhancements as part of nationwide FAA programs (such as
NextGen). These improvements were previously reported by the Port Authority’s
2007 Flight Delay Task Force, which included many of the same stakeholders as
the ARC. For the most part, the ARC initiatives represented a compilation of
ideas, including several that were either more than 10 years old, previously used at
NY airports, or already being addressed by FAA.3

The ARC also recommended that FAA establish a new position—the Director,
NY Area Program Integration Office (Integration Office)—to provide executive
level coordination and integration of all activities to address congestion and flight
delays in the NY metropolitan area. FAA established this position in April 2008.

FINDINGS

Completed ARC Initiatives Are Not Being Used or Are Used
Infrequently by FAA and the Airlines
Since December 2007, FAA reports having substantially completed 30 of the
77 initiatives. While indicating some progress, many factors contribute to the
initiatives being used infrequently or not at all. Specifically, we found that nine of
these initiatives are only used to address specific situations such as severe weather
or highly saturated airspace. Another 13 require further work due to operational
and technical problems, unfinished testing, and controller/airline issues relating to
arrival and departure procedures. As a result, the initiatives are incomplete or
incapable of delivering full benefits. Finally, three of the initiatives were
discontinued by FAA—at the request of several airlines—due to concerns over
cost, complexity, and equity (i.e., equal distribution of delays among airlines).

3
    Seventeen of the 77 initiatives were already underway before the ARC was established.
                                                                                    4


Since these issues affect over half of the 30 initiatives, we question their viability
as effective delay reduction solutions. (Exhibit C lists the 30 initiatives and their
current status.)

Limited Tactical Use
Nine completed initiatives have been used infrequently due to the limited number
of situations in which they were needed. For example, one initiative created a new
departure route into Canada but will only be used when severe weather blocks
access to other heavily used westbound routes. Although this can reduce
departure delays, airlines ultimately may choose not to take advantage of this
option because it increases airline fuel costs, equipage requirements, and
operational costs. Other initiatives to reduce airspace congestion by separating
overhead traffic are only used when the airspace becomes highly saturated. For
instance, two new airspace sectors were only open for 15 and 69 hours,
respectively, in January 2009. Essentially, their benefits are limited by the
conditions that would require their use.

Operational and Technical Problems
Five initiatives will not deliver benefits until operational or technical problems are
resolved. For example, two of these, which establish Area Navigation (RNAV)
arrival and departure procedures, require modifications before they can be fully
used. RNAV arrival and departure procedures allow pilots to fly more precise
paths into and out of airports. RNAV procedures also give controllers more
flexibility to sequence aircraft that are landing and departing. Although RNAV
procedures can help reduce flight delays, the process for developing or refining
procedures can be time consuming and must be coordinated among several FAA
offices. As a result, these procedures will not be available until late 2009 and
early 2010. Airline representatives who participated in FAA’s June 2009
stakeholder meeting to evaluate the 30 “completed” ARC initiatives stated that a
third RNAV visual procedure (developed for a specific airline) needs to be made
available to other airlines to expand its use.

Ongoing Testing
Three initiatives are still undergoing testing and therefore should not be
considered complete until they are fully available and routinely used. Specifically,
FAA continues to test the benefit of one initiative that reroutes northbound traffic
to Boston. FAA has yet to quantify whether this reroute measurably reduces
congestion as testing has been affected by low traffic volumes. FAA is testing
another initiative to expedite international departures out of New York by
establishing random eastern routes. While it appears to be delivering benefits
(e.g., fuel savings, reduced emissions, and fuel burn), FAA has yet to make it
routinely available. Finally, FAA is refining and testing an automated planning
                                                                                                                        5


tool called for in another initiative that will identify alternate departure routes
during severe weather. Until these actions are completed, it is unclear what
benefits these initiatives will have in reducing delays and congestion.

Controller and Airline Issues
Five initiatives intended to improve arrival and departure efficiency, such as
allowing simultaneous or dual approaches at John F. Kennedy and Newark
airports, are opposed by controllers because of perceived safety factors, workload
requirements, and insufficient benefits. Controllers note that such approaches at
John F. Kennedy airport require a second staffed position and believe that benefits
from this procedure are reduced by existing operational complexities. Airlines,
however, fully support these approach procedures, stating that they provide clear
benefits and should be used more often. Controllers also oppose FAA’s efforts to
reduce excessive spacing between aircraft on final approach for fear of incurring
operational errors. 4 However, airlines state that reducing excessive spacing on
final approach would significantly improve the number of arrivals.

Overall, controller opposition has led to limited use of some of these initiatives.
Based on the airlines’ concerns, the Integration Office Director has changed the
status of four of these initiatives to ongoing and plans to further evaluate these
procedures.

Discontinued Initiatives
At the request of several airlines, FAA discontinued three initiatives because of
cost, equity, and complexity concerns. Specifically, an initiative to reroute flights
from the Caribbean to Newark airport was discontinued because of added mileage
and increased operating costs. Another, intended to spread delays to other
northeastern airports, was never implemented because of airline concerns that
resulting delays would be unevenly distributed. The third initiative, which would
have allowed reduced spacing between aircraft in a holding pattern, was
discontinued during testing due to airline complaints about added mileage and
increased fuel costs.

On May 20, 2009, we testified before the House Subcommittee on Aviation that
FAA reported more than one-third of the initiatives as complete, even though most
of them were not used or were used infrequently. 5 Based on our testimony and
input received from airlines and other key stakeholders, the Integration Office
Director has re-categorized half of the initiatives that were previously reported as

4
    An operational error occurs when an air traffic controller allows aircraft to come too close together and can result in
    disciplinary action.
5
    OIG Testimony Number CC-2009-067, “Progress and Remaining Challenges in Reducing Flight Delays and
    Improving Airline Customer Service,” May 20, 2009. OIG reports are available on our website: www.oig.dot.gov.
                                                                                                                 6


complete. Specifically, the Director changed the status of 13 “completed
initiatives” to “ongoing” and dropped 2 of the 3 initiatives that we identified as
“discontinued.”

FAA and Stakeholders Must Address Various Challenges Before the
Remaining Initiatives Can Be Implemented
FAA faces challenges that need to be addressed before it can complete and fully
utilize the remaining 47 initiatives. Challenges include equipage and training
requirements, unfavorable benefit-cost ratios for some projects, and ongoing
litigation surrounding airspace redesign efforts. Complicating these challenges is
the fact that most of the remaining initiatives are part of larger, nationwide FAA
programs (e.g., airspace redesign and NextGen) and will not be completed until
2012 or later, pushing out anticipated benefits for many years.

RNP Initiative Requires Specially Equipped Aircraft and Aircrew Training
One initiative would require airlines to upgrade or install additional equipment in
order to use new Required Navigation Performance (RNP) procedures. These
procedures aim to reduce spacing requirements between aircraft landing on
parallel and converging runways. RNP is a form of RNAV that adds on-board
navigation monitoring and alerting capabilities to guide aircraft more precisely to
and from airports. 6 Consequently, participating airlines may need to upgrade or
install additional equipment that can cost up to $500,000 per aircraft (especially
for older models). Airlines would also have to ensure their aircrews are trained on
the new procedures. Although 36 percent of commercial aircraft in the NY area
are currently equipped to fly RNP approaches, only 12 percent are authorized to
use them. FAA is conducting a study to determine the feasibility of developing
additional RNP procedures for aircraft flying into NY airports; however,
implementation would not occur until at least 2011 to 2015.

Some Initiatives May Be Impractical To Implement
Both FAA and stakeholders question the practicality and benefits of six of the
remaining initiatives. For example, one initiative could require tunneling under a
runway safety area and rerouting an access road at LaGuardia airport to improve
the flow of departing aircraft. Another would require purchasing the property
rights from a hotel and another business near Newark airport to install an approach
lighting system—FAA terminated a similar project nearly 10 years ago. A third
initiative would relocate a cement factory near LaGuardia airport. For each of

6
    The OIG recently testified on challenges with RNP and RNAV. OIG Testimony Number CC-2009-086,
    “Challenges in Implementing Performance-Based Navigation in the U.S. Air Transportation System,” July 29, 2009.
    Later this year, the OIG plans to issue a report on FAA’s oversight of RNAV/RNP procedures that are being
    developed by third-party contractors.
                                                                                                           7


these projects, FAA officials question whether the anticipated benefits would
warrant the multimillion-dollar investment.

Ongoing Litigation May Delay Initiatives Tied to NY Airspace Redesign
The New York/New Jersey/Philadelphia airspace redesign—which impacts eight
ARC initiatives—has been challenged by a number of individuals and localities in
court. The petitioners argued that FAA violated Federal environmental laws in
developing the airspace redesign. The petitioners also claimed that the redesign
will increase safety risks, noise, and air pollution as well as lower property values.
FAA prevailed before the U.S. Court of Appeals for the District of Columbia (DC)
Circuit, 7 but Connecticut’s Attorney General, who argued the case before the
DC Circuit, publicly signaled his intent to appeal to the U.S. Supreme Court. If
the Supreme Court accepts the case and decides in favor of the petitioners, FAA’s
redesign efforts may be significantly delayed.

Initiatives Linked to Larger, National FAA Programs Will Take Years To
Implement
Since many of the remaining ARC 77 initiatives are part of larger programs such
as NextGen, airspace redesign, or major capital improvements, they will not be
completed for many years. These include efforts to redesign the NY airspace
(2007 to 2012), establish RNAV procedures (2009 to 2012), construct taxiways at
JFK (2009 to 2014), and implement mid-term NextGen goals (2012 to 2018). For
example, three RNAV initiatives will be implemented in stages of the airspace
redesign effort. This effort involves the redesign of the NY airspace and its
integration with portions of the Boston; Philadelphia; and Washington, DC,
airspace. Additionally, initiatives related to capital infrastructure projects must
undergo time-consuming environmental reviews, which can take up to 10 years or
more.

FAA Has Not Fully Established Processes for Evaluating Initiatives,
Ensuring Timely Completion, and Measuring Their Effectiveness
FAA began implementing many of the ARC’s 77 initiatives before it had validated
their technical feasibility, assessed anticipated operational benefits against
implementation costs, or identified baseline performance measures. In fact, many
of the 30 “completed” initiatives were underway before the ARC was created and
therefore did not undergo a full operational assessment to identify delay-reduction
expectations. This has caused stakeholders to question the initiatives’ timely
usage and benefits. To avoid these problems, it will be important for FAA to

7
    On June 10, 2009, a panel of the U.S. Court of Appeals for the District of Columbia Circuit dismissed the
    challenges. On August 19, 2009, the full DC Circuit denied the petitioners request for a rehearing.
                                                                                     8


establish an integrated process to validate the operational benefits of all completed
initiatives and assess the remaining ones to determine whether they warrant
implementation. Unless such actions are taken, FAA will continue to have
difficulty reaching consensus on the benefits of initiatives. Moreover, without this
process in place, FAA could potentially pursue initiatives that may not be viable or
cost effective.

The NY Integration Office Has Made Progress in Assessing Initiatives
The Integration Office has taken several important steps toward assessing the
completed and remaining initiatives. First, the 30 “completed” initiatives were
thoroughly reviewed—with 15 initiatives subsequently re-categorized (i.e., 13 as
“ongoing” and 2 as “dropped”). Second, on June 26, 2009, the office issued
standard operating procedures for developing a delay-reduction plan and an
integrated master schedule for addressing the remaining 47 initiatives (as well as
those completed initiatives still under review). Although these tools have yet to be
finalized, they will create a critical framework for evaluating operational benefits,
conducting technical feasibility studies, performing cost/benefit analyses, tracking
implementation, and reporting on progress. Overall, the plan and schedule will go
far in identifying initiatives that should not be pursued, prioritizing initiatives for
implementation if they can measurably reduce delays, and incorporating additional
options beyond the ARC 77.

Successful Implementation of Initiatives Depends on Seamless
Coordination Among Relevant FAA Organizations
The Integration Office’s new standard operating procedures create a framework
for coordinating the evaluation and implementation of the ARC initiatives among
various key stakeholders—including FAA organizations, airports, and airlines.
Such coordination is critical because of the shared responsibilities these
stakeholders have in identifying, evaluating, funding, testing, and using the
various initiatives. This office was established to implement delay-reduction
initiatives across FAA’s organizations (including the Air Traffic Organization, or
ATO; Aviation Policy, Planning, and Environment; Airports; and Aviation
Safety). However, the Integration Office has no direct authority over these
organizations or non-FAA stakeholders. It is important, therefore, that all
stakeholders support the Integration Office’s efforts to establish an effective
process for evaluating and implementing the initiatives.

During our review, it became apparent that ATO support for these efforts is not
consistent among its senior officials. For instance, the ATO Chief Operating
Officer has expressed support and agreed to provide the Integration Office with a
wide range of system performance and operational data (e.g., airspace, capacity,
delays, and operational benefits evaluations). He stated that delay-reduction
                                                                                    9


initiative proponents within ATO would cooperate to provide funding in support
of these services. The Integration Office Director noted that this information will
greatly assist efforts to establish performance baselines, measure operational
impacts, and communicate results for initiatives.

Yet, other senior ATO officials do not support elements of the Integration Office’s
process as outlined in the June 2009 standard operating procedures. Those
officials believe that the responsibility for determining which initiatives should be
pursued, funded, and evaluated lies within the ATO. Nevertheless, many of the
ARC initiatives involve or impact FAA organizations outside the ATO, which
means an integrated approach will be required to oversee NY delay reduction
activities.

ATO’s full support is particularly important since it has a primary role in
evaluating and implementing many of the initiatives. Ultimately, without the full
support of all involved FAA organizations and stakeholders, the Integration Office
will be unable to establish processes needed to achieve meaningful and
measurable reductions in NY area flight delays.

CONCLUSION
Almost 2 years after the ARC issued its December 2007 report the
NY metropolitan airports continue to experience high levels of delays. FAA’s
difficulty in mitigating this situation is due, in part, to insufficient understanding
and assessment of the potential benefits and implementation challenges associated
with the 77 initiatives. As a result, many of the completed initiatives are either
unused or used infrequently and most remaining initiatives face obstacles that will
further delay their completion. While FAA has begun addressing these issues,
much work remains to be done to ensure these efforts help reduce flight delays and
congestion in the NY area.

RECOMMENDATIONS
We recommend that FAA:

 1. Reassess completed initiatives and evaluate remaining initiatives to
    determine what, if any, benefits they provide and whether they should be
    continued. Those still being developed, tested, or discontinued due to
    technical or operational problems should be reported as ongoing, suspended,
    or cancelled.

 2. Resolve remaining technical and operational problems, as well as controller
    and airline issues affecting 13 of 30 completed initiatives.
                                                                                   10


 3. Fully operationalize the NY Area Delay Reduction Plan and Schedule by
    establishing performance baselines and cost/benefit analyses; coordinating
    activities across relevant FAA organizations; and identifying funding needs,
    technical requirements, and performance measures.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on August 19, 2009. On October 1, 2009,
FAA provided us with its formal response to our recommendations, which is
included in its entirety in the appendix to this report. FAA concurred with the first
two recommendations and partially concurred with our third recommendation.
Specifically, FAA agreed to establish performance baselines, analyze costs and
benefits, and coordinate activities but intends for officials within responsible lines
of business, rather than the Integration Office Director, to be primarily responsible
for overseeing the status of their respective initiatives.

We consider FAA’s planned actions and target completion dates to be responsive
and consider all three recommendations as addressed but open pending
completion. We appreciate the courtesies and cooperation of FAA representatives
during this audit. If you have any questions regarding this report, please contact
me at (202) 366-0500, or Darren Murphy, Program Director, at (206) 220-6503.

                                          #

cc: FAA Deputy Administrator
    Chief Operating Officer, Air Traffic Organization
    Associate Administrator for Airports
    Director, New York Area Program Integration Office
    Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                                    11



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. The audit was conducted between November 2008
and July 2009.

To assess FAA’s progress in implementing the ARC 77 initiatives, we reviewed
documentation showing the status of each of the initiatives based on information
obtained from the Integration Office and ATO System Operations. We also
interviewed officials from the Integration Office, the Air Traffic Control System
Command Center in Herndon, Virginia, and representatives from various
stakeholder organizations (see exhibit B for a complete list of stakeholders
contacted). Additionally, we attended a February 2009, FAA-sponsored Customer
Focus Seminar at the NY Air Route Traffic Control Center to discuss FAA’s
progress in implementing the initiatives. At this seminar, we also met with
representatives from the Boston and New York Air Route Traffic Control Center,
Continental Airlines, Delta Airlines, and the International Air Transport
Association. Finally, we conducted site visits to air traffic control facilities in the
NY area where we interviewed Agency officials, union representatives, and
aviation stakeholders to validate FAA’s progress and determine whether
completed initiatives were used and delivering benefits.

To identify challenges facing the implementation of both completed and yet to be
completed initiatives, we interviewed FAA officials and reviewed applicable
documentation provided by the responsible lines of business. Specifically, we
interviewed officials from the (1) RNAV/RNP Program Office responsible for
procedure development, (2) New York/New Jersey/Philadelphia Airspace
Redesign to assess the impact of ongoing litigation, and (3) NY regional and
district airport offices and the Port Authority of New York and New Jersey to
review capital infrastructure projects. We also obtained and reviewed the
NextGen Implementation Plan to identify the status and priority of NY-related
initiatives.




Exhibit A. Scope and Methodology
                                                                         12




EXHIBIT B. FACILITIES VISITED OR CONTACTED

FAA Headquarters, Washington DC
        Air Traffic Organization
            o Terminal Services
            o En Route and Oceanic Services
            o System Operations Services
        Office of Aviation Policy and Plans

Air Traffic Control Facilities
        Air Traffic Control System Command Center, Herndon, VA
        Air Traffic Control Towers
            o Newark, NJ
            o John F Kennedy International, NY
            o LaGuardia, NY
        New York TRACON, Westbury, NY
        New York Air Route Traffic Control Center, Ronkonkoma, NY

Eastern Region Facilities
        New York Airports District Office, Garden City, NY
        New York Area Program Integration Office, Jamaica, NY

Aviation Stakeholders
          Port Authority of New York/New Jersey, New York, NY
          National Air Traffic Controllers Association Washington, DC
          Air Line Pilots Association, Herndon, VA
          Airports Council International, Washington, DC
          RTCA, Inc., Washington, DC
          Mitre Corporation, McLean, VA
          Air Transport Association, Washington, DC
          JetBlue Airways, New York
          Delta Air Lines, New York
          Continental Airlines, New York
          International Air Transport Association, New York



Exhibit B. Facilities Visited or Contacted
                                                                                           13



EXHIBIT C. 30 “COMPLETED” INITIATIVES
Note: In May 2009, FAA testified that these 30 initiatives were “substantially
complete.”

                                   Benefits Seen
  No.                  Description                      Implementation Status
           Reduces departure restrictions for
                                                  Restrictions have been reduced at
    2      airports more than 500 miles from
                                                  three of the five identified airports.
           NY.
                                             Increased traffic throughput by
           Transfers control of airspace from
   10                                        utilizing the TRACON’s reduced
           NY Center to Potomac TRACON.
                                             separation requirements.
           Adds a new RNAV arrival           1,500 monthly arrivals use the new
   33
           procedure for Teterboro Airport.  RNAV approach.
           Increases use of alternate JFK    Departure alternative has been used to
   38
           departure runway.                 balance departure demand.
           Develops a RNAV arrival procedure 5,000 flights used this procedure in
   50
           for Newark.                       January and February 2009.

                               Limited Tactical Use
  No.                  Description                      Implementation Status
           Develops an additional severe          This initiative is available but has seen
    4
           weather route through Canada.          little use.
           Provides air traffic control towers    Airlines have requested other
    6
           alternative departure routes.          alternative routes be identified.
           Eliminates restrictions for            Airlines question the extent to which
    7
           departures not impacted by weather.    this procedure is being used.
                                                  Requires controllers to divert arriving
           Allows westbound departures to use
    8                                             traffic. Procedure is available but it
           an eastbound arrival route.
                                                  has not been used.
           Creates a high-altitude airspace       Dependent on high traffic volume.
   11      sector to reduce overhead traffic      Since traffic levels have been down,
           complexity.                            use has been limited.
                                                  Airlines want to see increased use of
           Provides access to alternate
   12                                             alternate routes on high volume days;
           westbound routes.
                                                  primarily used during severe weather.
           Creates a new airspace sector to       Dependent on high traffic volume.
   14      reduce overhead traffic                Since traffic levels have been down,
           complexities.                          use has been limited.
           Shifts overhead traffic to allow for   Due to additional miles flown, this
   15
           unrestricted departures.               initiative is used infrequently.
           De-conflicts domestic and              Usage is limited to 12AM to 6AM due
   47
           international arrivals.                to traffic volume constraints.



Exhibit C. 30 “Completed” Initiatives
                                                                                        14


                               More Work Required
Initiative
                         Description                       Implementation Status
   No.
                               Technical/Operational Issues
             Creates a second (dual) westbound      Additional access point will be added
    9
             J80 departure route.                   during airspace redesign.
             Establishes an RNAV visual             Used by only one airline, availability
   49
             approach procedure to Newark.          needs to be expanded to all airlines.
             Establishes an RNAV procedure for
                                                    Procedure requires more work and
   51        dispersing Newark departures
                                                    will be republished.
             westbound.
             Establishes an RNAV departure
                                                    Procedure requires more work and
   52        procedural to allow Newark flights
                                                    will be republished.
             to climb over LaGuardia arrivals.
                                                    Airlines stated that this initiative was
             Develops visual procedure for dual
   55                                               not implemented as intended and will
             arrivals for Newark runways.
                                                    require revision.
                                    Undergoing Testing
                                                    The Integration Office Director plans
             Shifts overhead traffic bound for      to conduct an Operational Benefits
   13
             Boston.                                Analysis to support its
                                                    implementation.
                                                    FAA extended testing until
             Allows random eastbound routes for
   22                                               September 30, 2009. Airlines would
             international traffic.
                                                    like to see its routine use.
             Upgrades Route Availability
                                                    Software continues to be refined and
   58        Planning Tool for use during severe
                                                    user training is ongoing.
             weather.
                                    Controller Concerns
                                                    Controllers mistrust FAA’s new
             Reduces excessive spacing on final     monitoring tool and policy change
    1
             approach to improve arrival rates.     intended to alleviate controller
                                                    concerns about operational errors.
                                                    Controllers identified safety concerns
             Uses simultaneous departure            regarding its use during unsafe wind
   16
             runways at JFK and Newark.             conditions. The initiative has been
                                                    completed at JFK only.
                                                    Requires that FAA staff a second
             Uses simultaneous instrument
   37                                               position at the TRACON. Controllers
             approaches at JFK.
                                                    question the operational benefits.
                                                    Use of this initiative conflicts with
             Allows dual arrivals on intersecting
   45                                               operations at another airport, thereby
             runways at Newark.
                                                    limiting operational benefits.
             Uses simultaneous visual approaches Controllers concerned with increased
   46
             at Newark.                             complexity and workload demands.



Exhibit C. 30 “Completed” Initiatives
                                                                                          15


                                      Discontinued
Initiative
                         Description                        Implementation Status
   No.
             Uses FAA’s Airspace Flow Program
                                                       Airlines were concerned the initiative
             to allow unrestricted NY departures
    3                                                  would affect some airlines and
             by restricting aircraft departing other
                                                       airports more than others.
             Northeast airports.
             Transfers a holding pattern from the
                                                       An airline objected due to added
    5        NY Center’s control to the
                                                       mileage requirements.
             TRACON.
             Reroutes Caribbean traffic to             An airline objected due to added
   48
             manage Newark arrivals.                   mileage requirements.




Exhibit C. 30 “Completed” Initiatives
                                                       16



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                               Title

Darren Murphy                    Program Director

Jerrold Savage                   Project Manager

Linda Major                      Senior Auditor

Curtis Dow                       Analyst

Mike Dunn                        Auditor

Henning Thiel                    Analyst

Teri Vogliardo                   Analyst

Petra Swartzlander               Senior Statistician

Andrea Nossaman                  Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                 17



APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:          October 1, 2009
To:            Lou E. Dixon, Assistant Inspector General for Aviation and Special Program
               Audits
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Anthony Williams, x79000
Subject:       OIG Draft Report: Status of Aviation Rulemaking Committee’s (ARC) 77
               Initiatives for Reducing Delays in the New York


The Federal Aviation Administration (FAA) recognizes the impact of New York (NY) area
delays on the national airspace system and has made significant progress in evaluating and
implementing the ARC initiatives. We remain committed to improving operational performance
in the NY metropolitan area using a multi-tiered approach to 1) increase tactical performance and
accountability, 2) build on those improvements with near-term initiatives like NY/NJ/PHL
Airspace Redesign and implementation of new RNAV-based procedures and 3) deploy mid to
long-term NextGen solutions.

In December 2007, the Port Authority of New York and New Jersey (PANYNJ) Task Force and
ARC delivered their final reports, identifying nearly identical lists of 77 initiatives. The New
York Area Program Integration Office (NYAPIO) was established to oversee the integration of
activities related to congestion and delay reduction in the NY/NJ area. This FAA response
establishes a process to address the Department of Transportation, Office of Inspector General’s
(OIG) concern that many of the original 77 initiatives (the “ARC-77”) were included without
fully assessing their technical feasibility, operational benefits or costs. The review process will
ensure that organizations responsible for each initiative are accountable for their individual
program integration and results, while clarifying the NYAPIO’s role in maintaining the
integrated master schedule, tracking progress and reporting status, as well as assuring the
portfolio of initiatives are integrated across all internal lines of business and external
stakeholders.

The following is FAA’s response to each recommendation contained in the OIG report:




Appendix. Agency Comments
                                                                                                18


OIG Recommendation 1: Reassess completed initiatives and evaluate remaining initiatives to
determine what, if any, benefits they provide and whether they should be continued. Those still
being developed, tested, or discontinued due to technical or operational problems should be
reported as ongoing, suspended, or cancelled.

FAA Response: Concur. FAA reported to Congress in May 2009 that 30 of the ARC-77
initiatives were substantially complete based on an agreement reached by the stakeholder group.
The status of 14 of those initiatives was subsequently changed to “ongoing” to reflect requests
for additional follow-up received at a stakeholder meeting in June. A reassessment of the 30
initiatives that were deemed substantially complete was recently completed by the NYAPIO and
a matrix team which consists of members from ATO, Airports, Aviation Safety, and Aviation
Policy, Planning and Environment. The evaluation concluded that 16 are complete and require
no additional action (see attachment). The remaining 14 that were originally identified as
substantially complete and the other 47 initiatives will be included in a comprehensive agency
review, to be completed no later than January 31, 2010 (see response to OIG Recommendation
3). Those initiatives determined to be appropriate for continuation based on evaluation of
potential benefit, obstacles to implementation, and cost will be incorporated into the results of
the Agency's review of the RTCA Task Force 5 recommendations, and become the basis of
future FAA/stakeholder deliberations regarding operational improvements planned for the NY
area. The review process will also ensure that organizations responsible for each initiative are
accountable for their individual program integration and results, while clarifying the NYAPIO’s
role in maintaining the integrated master schedule, tracking progress and reporting status, as well
as assuring the portfolio of initiatives are integrated across all internal lines of business and
external stakeholders.

OIG Recommendation 2: Resolve remaining technical and operational problems, as well as
controller and airline issues affecting 13 of 30 completed initiatives.

FAA Response: Concur. The NYAPIO and stakeholders have agreed that four of the 13
initiatives are complete. The remaining 9 will be included in a comprehensive FAA review of all
open ARC-77 initiatives, to be completed no later than January 31, 2010 (see response to OIG
Recommendation 3).

OIG Recommendation 3: Fully operationalize the New York (NY) Area Delay Reduction Plan
and Schedule by establishing performance baselines and cost/benefit analyses; coordinating
activities across relevant FAA organizations; and identifying funding needs, technical
requirements, and performance measures.

FAA Response: Partially concur. FAA has identified considerable overlap between the ARC-
77 initiatives, NY/NJ/PHL Airspace Redesign, the NextGen Implementation Plan, the recently
announced recommendations from Task Force 5 and several ongoing agency programs. FAA
will conduct a comprehensive review of all open ARC-77 initiatives, no later than January 31,
2010, to improve tracking, integration and accountability. Affected lines of business will assess
initiatives for which they are responsible, and report the status of each as completed, ongoing,
suspended, or cancelled. The review will also identify those initiatives that are being addressed
tactically, as elements of core business or as components of NextGen and discontinue tracking



Appendix. Agency Comments
                                                                                                   19


them as distinct New York area initiatives. FAA will establish performance baselines and
cost/benefit analyses; coordinate activities across relevant FAA organizations; and identify
funding needs, technical requirements, and performance measures for each of the initiatives that
result from FAA/stakeholder consideration of RTCA Task Force 5 recommendations (including
any continued ARC initiatives). The NYAPIO will be responsible for maintaining a Master
Schedule to integrate and track the status of the portfolio of initiatives that apply specifically to
the New York area, as reported by the accountable lines of business.




Appendix. Agency Comments
